 Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




Physical And Occupational Therapy in Nursing Homes
         Medical Necessity and Quality of Care




                           JUNE GIBBS BROWN
                            Inspector General

                                AUGUST 1999
                               OEI-09-97-00121
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's San Francisco regional office prepared this report under the direction of Kaye D. Kidwell,
Regional Inspector General, and Paul A. Gottlober, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                   HEADQUARTERS

Deborah Harvey, Project Leader                           Susan Burbach, Program Specialist
Robert Gibbons, Program Analyst                          Jennifer Antico, Program Specialist
Carrie Lozano, Program Analyst                           Stuart Wright, Program Specialist
Lori Stickel, Program Analyst                            Barbara Tedesco, Statistician



To obtain copies of this report, please call the San Francisco Regional Office at 415-437-7900.
Reports are also available on the World Wide Web at our home page address:

                                   http://www.dhhs.gov/progorg/oei
                         EXECUTIVE                           SUMMARY

PURPOSE

     To determine the medical necessity and quality of care of physical and occupational therapy
     rendered to Medicare patients in skilled nursing facilities.

BACKGROUND

     All skilled nursing facilities must meet the requirements of Section 1819 of the Medicare law.
     The facilities must, for example, (1) provide 24-hour skilled nursing service; (2) develop
     treatment plans for each patient from a physician’s order; (3) maintain clinical records on all
     patients; and (4) meet a number of conditions to assure patients’ health and safety. Most
     skilled nursing facilities also provide custodial care.

     Medicare coverage guidelines state that all therapy must be reasonable, necessary, specific, and
     effective treatment for the patient’s condition. Policies developed by the Health Care
     Financing Administration, the federal agency that administers the Medicare program, require
     that therapy be ordered by a physician, require the skills of a qualified therapist, and be dictated
     by a written treatment plan. The treatment plan must include specific and measurable
     functional goals and a reasonable estimate of when those goals will be attained. It should
     describe specific therapeutic services, the frequency of visits, and the duration of therapy.

     We conducted on-site medical review at a random sample of 24 skilled nursing facilities
     nationwide. Several teams of physical and occupational therapists reviewed the March 1998
     medical records of a national random sample of 218 Medicare patients. The medical reviewers
     determined the medical necessity of the therapy provided to the sampled patients before the
     implementation of the prospective payment system for skilled nursing facilities which began on
     July 1, 1998.

FINDINGS

Most skilled nursing facility patients were appropriate candidates for physical and
occupational therapy, and they benefitted from therapy

     Most patients received appropriate therapy interventions for their initial medical conditions,
     and at least two-thirds of patients achieved their treatment goals. Most patients would not
     have achieved similar levels of function without therapy.




Medical Necessity of SNF Physical/Occupational Therapy   1                                  OEI-09-97-00121
However, almost 13 percent of therapy was billed improperly to Medicare

     By facility, the percentage of therapy that was billed improperly ranged from zero to
     51 percent. Smaller facilities were more likely than larger facilities to bill improperly.

     Therapy was deemed as improperly billed to the Medicare program when it was not medically
     necessary and/or therapy was provided by staff who did not have the appropriate skill for the
     patient’s medical condition.

In addition to the 13 percent of therapy that was billed improperly, another
4 percent was not documented in the patients’ medical records

     In several cases, therapists did not explain changes in the patient’s progress which would
     justify large variations in the duration of therapy.

RECOMMENDATION

     From our findings, it is clear that some problems stem from a lack of awareness and
     understanding of Medicare coverage and guidelines, while others may be more directly related
     to overutilization in order to maximize Medicare reimbursement. Our findings also reflect our
     general concern for the need for improved quality of care, with an emphasis on patient safety
     and appropriate therapy treatment.

     Therefore, we recommend that the Health Care Financing Administration provide more
     training to SNFs and therapy staff on Medicare coverage criteria and guidelines for physical
     and occupational therapy, local medical review policies, and monitoring procedures. This
     could be accomplished by:

     1.	 instructing Medicare fiscal intermediaries to provide regular workshops to SNFs, especially
         smaller facilities, and therapists and

     2.	 working collaboratively with the national therapy and nursing home associations to assure
         that they provide accurate and comprehensive information to their members.

     In this report, we have focused on the medical necessity of physical and occupational therapy.
     In a companion report entitled Physical and Occupational Therapy in Nursing Homes: Cost of
     Improper Billings to Medicare (OEI-09-97-00122), we analyzed how much improperly billed
     therapy costs the Medicare program.




Medical Necessity of SNF Physical/Occupational Therapy   2                                  OEI-09-97-00121
AGENCY RESPONSE

     We received comments on the draft report from the Health Care Financing Administration.
     The agency concurred with the report’s conclusions. The Health Care Financing
     Administration already has increased medical review efforts at the Medicare contractors as part
     of its on-going program integrity efforts, and they will continue to focus on appropriate
     therapy for Medicare beneficiaries. The agency also has published new medical review
     guidelines for skilled nursing facilities and plans to conduct related training to strengthen
     provider education.

     The full text of the Health Care Financing Administration’s comments appears in appendix C.




Medical Necessity of SNF Physical/Occupational Therapy   3                             OEI-09-97-00121
                           TABLE                       OF              CONTENTS
                                                                                                                               PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


     Medically necessary therapy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


     Improperly billed therapy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


     Undocumented therapy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


APPENDICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


     A: Glossary of Terms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


     B: Confidence Intervals for Selected Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


     C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22





Medical Necessity of SNF Physical/Occupational Therapy             4                                                   OEI-09-97-00121
                                      INTRODUCTION

PURPOSE

     To determine the medical necessity and quality of care of physical and occupational therapy
     rendered to Medicare patients in skilled nursing facilities.

BACKGROUND

Medicare Coverage for Skilled Nursing Facilities

     All skilled nursing facilities (SNF) must meet the requirements of Section 1819 of the Medicare

     law. The facilities must, for example, (1) provide 24-hour skilled nursing service under policies

     developed by physicians, registered nurses, or other professionals; (2) develop health plans for

     each patient, under the supervision of a physician; (3) maintain clinical records on all patients;

     and (4) meet a number of conditions to assure patients’ health and safety.


     The Medicare program provides SNF coverage under Part A, which does not include custodial

     care. The Part A benefit includes:


     <    nursing care;

     <    bed and board;

     <    physical, occupational, and/or speech therapy;

     <    medical social services; and

     <    drugs, biologicals, supplies, appliances, and equipment for use in the facility.


     Medicare stipulates that patients are eligible for Part A benefits if they are transferred to a SNF

     after a minimum 3-day covered stay in an acute care hospital. The patient must require skilled

     nursing care and/or rehabilitation services, and a physician must order the services. Part A

     covers SNF services for up to 100 days per “spell of illness.” The patient is responsible for a

     copayment for the 21st through 100th day of care. After 100 days, patients are not covered

     under the SNF benefit, but they may be covered for various services under Part B, even while

     they are receiving only custodial care.


     Most SNFs provide custodial care as well as skilled nursing services. Unlike other 

     long-term care facilities, SNFs also may be reimbursed under Part B for any patients who

     receive Part B-covered services only. The SNFs are responsible for meeting the needs of long-

     term patients who are eligible for Part B services only during their stay.





Medical Necessity of SNF Physical/Occupational Therapy   5                                    OEI-09-97-00121
Description of Physical and Occupational Therapy

     According to the American Physical Therapy Association, physical therapy is “... the care and
     services that includes (1) examining patients with impairments, functional limitations or
     disabilities or other health-related conditions in order to determine a diagnosis, prognosis, and
     intervention; (2) alleviating impairments and functional limitations by designing, implementing
     and modifying therapeutic interventions; and (3) preventing injury, impairment, functional
     limitation and disability, including the promotion and maintenance of fitness, health, and quality
     of life.”1 Common treatments include therapeutic exercise, prescription and customization of
     prosthetic devices and equipment, and wound management. For example, physical therapy
     may include gait training on ramps, stairs, or curbs to improve a patient’s walking ability
     impaired by injury or illness.

     The American Occupational Therapy Association defines occupational therapy as “...the use
     of purposeful activity or interventions designed to achieve functional outcomes which promote
     health, prevent injury or disability, and which develop, improve, sustain or restore the highest
     possible level of independence of any individual who has an injury, illness, cognitive
     impairment, psycho social dysfunction, mental illness, developmental or learning disability,
     physical disability, or other disorder or condition.”2 Occupational therapy primarily focuses on
     compensatory techniques to improve a patient’s ability to complete the activities of daily living
     independently. Therapy may include (1) assessing patient need; (2) designing, developing,
     adapting, applying, or training in the use of assistive or orthotic devices;
     (3) adapting environments and processes to enhance functional performance; or (4) promoting
     health and wellness. Two examples include teaching a patient who has lost the use of an arm
     how to prepare food and cook with one hand and designing, building, and training a patient in
     the use of an assistive device that would enable him to hold a utensil and feed himself
     independently.

     The staff who provide physical and occupational therapy to patients include therapists,
     assistants, and aides. Staff are distinguished by training and experience and often are licensed,
     registered, or certified by the State where they practice. We have included descriptions of each
     staff level and some common terminology in appendix A.

Medicare Coverage of Physical and Occupational Therapy




           1
          American Physical Therapy Association, Model Definition of Physical Therapy for State
 Practice Acts, Board of Directors Policies, Positions and Guidelines, March 1998.
           2
           The American Occupational Therapy Association, Inc. Definition of occupational therapy
 practice for State regulation. The American Occupational Therapy Association, Inc. Policy Manual
 (Association Policy 5.3.1), July 1994.

Medical Necessity of SNF Physical/Occupational Therapy   6                                OEI-09-97-00121
     All SNFs are required to assess each patient’s status and needs shortly after admission,
     including the need for physical and occupational therapy. The Nursing Home Reform Act (P.L.
     100-203), which Congress passed as part of the Omnibus Budget Reconciliation Act of 1987,
     requires that SNFs assess the needs of all patients within 14 days of admission and reassess
     long-term patients annually. Problems identified through the assessment must be treated to
     attain or maintain “the highest practicable level” of functioning based on the patient’s physical,
     mental, and psycho social well-being.

     Medicare guidelines state that all therapy must be reasonable, necessary, specific, and effective
     treatment for the patient’s condition. While Medicare regulations define common illnesses and
     injuries requiring therapy, the regulations do not specifically bar therapy for illnesses or injuries
     that are not mentioned. Fiscal intermediaries, the insurance companies that adjudicate cost
     reports for inpatient hospitals and SNFs, often develop local medical review policies to
     supplement Medicare guidelines.

     Medicare coverage requires that the therapy meet all of the following conditions:3

      < the therapy must be ordered by a physician;
      < the therapy level’s complexity and sophistication, or the patient’s condition, require the
         skills of a qualified therapist rather than nonskilled SNF staff;
      <	 the medical record contains an active written treatment plan that includes specific and
         measurable treatment goals related to the patient’s condition along with a reasonable time
         estimate of when those goals will be achieved;
      < the treatment plan should describe the specific therapeutic interventions that will be utilized
         to restore the patient’s level of function which has been lost or reduced by illness or injury;
      < the amount, frequency, and duration of therapy should be reasonable and necessary for the
         patient’s condition;
      < therapy is provided either by or under the direct supervision of a certified therapist;4
      < therapy must be provided with the expectation, based on the assessment made by the
         physician or therapist of the patient’s restoration potential, that the patient’s condition will
         improve substantially in a reasonable and generally predictable period of time, or the
         therapy must be necessary for the establishment of a safe and effective maintenance
         program. However, therapy will only be covered until the physician and/or therapist
         concludes that the patient is not going to improve; and
      < the patient is seen by the physician at least every 30 days.




           3
         Health Care Financing Administration, Skilled Nursing Facility Manual, Sections 214, 230,
 230.3(C), and 271.
           4
           State regulations define whether or not direct supervision includes the onsite presence of a
 certified therapist.

Medical Necessity of SNF Physical/Occupational Therapy   7                                       OEI-09-97-00121
     A SNF patient may receive more than one type of therapy within the same episode of care. For

     example, the occupational therapist may assist the patient with the use of adaptive 

     self-help devices while the physical therapist might address a different need, such as increasing

     muscle strength, sitting balance, and control of head movement.


Prior Work by the Office of Inspector General

     In April 1998, the Office of Inspector General published a report describing the results from a
     probe sample of physical and occupational therapy provided in six randomly selected SNFs in
     California.5 The major conclusions were:

     <	 Medically unnecessary physical and occupational therapy at sampled SNFs ranged from less
        than 4 to more than 80 percent, and

     <    Multiple factors account for the high volume of medically unnecessary therapy, such as:

          1.	 skilled therapy is frequently provided when nonskilled maintenance services would be
              more appropriate,
          2.	 therapists sometimes ignore the patient’s prior level of function and set unrealistic
              goals, and
          3. the frequency of therapy is sometimes excessive.

     Based on the probe sample, the Office of Inspector General decided to conduct this national
     inspection.

METHODOLOGY

Sampled SNF Selection

     From the Medicare Common Working File, we extracted all March 1998 physical and
     occupational therapy claims (both Parts A and B) submitted by SNFs to fiscal intermediaries
     for payment. We limited the extract to SNFs in the continental United States. We reviewed
     therapy rendered to patients before the Health Care Financing Administration implemented the
     SNF prospective payment system on July 1, 1998. We purposely selected claims submitted
     before July 1, 1998 to maintain consistency in SNF and fiscal intermediary policies and
     procedures for the 12 months prior to the change in payment systems.




           5
         Office of Inspector General, Medical Necessity of Physical and Occupational Therapy in Skilled
 Nursing Facilities--California Probe Sample Results [Early Alert], OEI-09-97-00120, April 1998.

Medical Necessity of SNF Physical/Occupational Therapy   8                                OEI-09-97-00121
     We stratified the SNFs into four strata by (1) regions of the United States and (2) the total

     physical and occupational therapy charges for March 1998. Within each stratum, we grouped

     the SNFs into clusters such that


      < the SNFs were in the same geographic area and

      < the sum of physical and occupational therapy charges per cluster was fairly constant.


                   United States                              Facility Charges for Physical
                                                Stratum
                     Region                                    and Occupational Therapy
                                                     1    less than $60,000
                         East
                                                     2    equal to or greater than $60,000
                                                     3    less than $60,000
                 West and Central
                                                     4    equal to or greater than $60,000

     We then randomly selected two SNF clusters per stratum. Within each SNF cluster, we
     randomly selected 3 SNFs, resulting in a total sample of 24 SNFs. Within each SNF, we
     randomly selected 10 patients who received physical and/or occupational therapy during March
     1998. If a SNF had fewer than 10 patients who received therapy in that month, we reviewed
     all of them.

     Calculations for the confidence intervals account for all levels of clustering and stratification.
     The 95 percent confidence intervals for the statistics in this report are listed in appendix B.

On-Site Medical Review

     We conducted on-site reviews at the 24 SNFs for the 218 sampled patients who received

     physical and occupational therapy in March 1998. Several teams of physical and occupational

     therapists reviewed the medical records. All reviewers are licensed or certified therapists in

     their respective States and are current members of both their national and State therapy

     associations. The medical reviewers used structured medical review instruments to determine

     if each therapy (i.e., treatment encounter) was medically necessary, unnecessary, or

     undocumented. We presented the draft instruments to representatives of various therapy and

     nursing home national associations and patient interest groups and provided them the

     opportunity to comment.


     The reviewers used structured medical review instruments to determine whether or not:


      < therapy was ordered by a physician,

      < the patient was a good candidate for physical and/or occupational therapy,

      < therapy was based on medical need,



Medical Necessity of SNF Physical/Occupational Therapy    9                                   OEI-09-97-00121
      < the medical condition warranting the therapy was documented in the medical records,

      < the treatment plan was appropriate,

      < the types of therapeutic activities and the frequency and duration of the treatment were

        delineated clearly,
      < the therapy was rendered with appropriate frequency,
      < therapy was discontinued at the appropriate time,
      < appropriate therapy staff performed the interventions, and
      < medical records clearly documented the patient’s progress.

     While on-site, we reviewed therapy ledgers, requested copies of the Medicare bills for the
     sampled patients (i.e., Form UB-92), interviewed SNF administrators and some key therapy
     staff, obtained therapy contracts that were in effect in March 1998, and observed some physical
     and occupational therapy conducted with patients. Assuming that March 1998 is a typical
     month, we projected the results of the medical review to the 12-month period ending June 30,
     1998. See appendix B for more details. After the onsite review, we requested local medical
     review policies and therapy guidelines from the fiscal intermediaries for the sampled SNFs.

     This report is one in a series of reports on physical and occupational therapy for Medicare SNF
     patients. A companion report, Physical and Occupational Therapy in Nursing Homes: Cost
     of Improper Billings to Medicare (OEI-09-97-00122), details the costs for medically
     unnecessary and undocumented therapy described in this report.

     Our review was conducted in accordance with the Quality Standards for Inspections issued by
     the President’s Council on Integrity and Efficiency.




Medical Necessity of SNF Physical/Occupational Therapy   10                             OEI-09-97-00121
                                                FINDINGS

Most SNF patients were appropriate candidates for physical
and occupational therapy, and they benefitted from therapy
Most patients received appropriate therapy given their initial medical conditions

     Approximately 83 percent of physical and occupational therapy provided in 1998 to SNF
     patients was billed properly to Medicare. Medical reviewers determined that treatment goals
     and plans were appropriate to the therapy diagnoses, and most patients initially received
     therapy with the appropriate frequency and duration of individual sessions. In fact, reviewers
     found that most patients would not have achieved similar functional levels without therapy.

     Medical reviewers determined that the medical conditions for most patients required the need
     for skilled physical and occupational therapy. The therapy interventions appeared functionally
     relevant and clinically appropriate. When a patient’s condition or progress changed, the
     therapist usually revised the goals and plan in measurable ways, and the medical record usually
     documented the patient’s prior functional level. Positive outcomes included shorter lengths of
     stay and returning more patients to independent living. Reviewers found that these medical
     records were complete, in order, and provided enough data to clearly justify all therapy
     provided to the patients.

At least two-thirds of patients achieved their treatment goals

     Almost 67 percent of physical therapy patients and 73 percent of occupational therapy patients
     had good outcomes from therapy. Reviewers determined that most treatment goals were
     reached within a reasonable time given the patient’s medical condition, tolerance level, and
     therapy progress. Based on the planned interventions (for example, gait training or
     re-learning bathing and personal grooming activities), therapists provided sessions with the
     proper frequency and duration of individual sessions.

                                ACHIEVEMENT OF TREATMENT GOALS

                                                                           Percent of Therapy
                                  Achievement
                                                                        Physical        Occupational
               Patient achieved goals fully or partially                 66.8%               73.3%

               Patient did not achieve goals                             27.1%               16.5%
               Reviewer could not determine                               6.0%               10.1%
                                                         Source: Office of Evaluation and Inspections, 1999


Medical Necessity of SNF Physical/Occupational Therapy      11                                         OEI-09-97-00121
     Medical reviewers noted that in a few of the SNFs, physical and occupational therapists
     collaborated when they developed initial treatment plans and re-evaluated the patients. By
     collaborating, therapists assured that they did not duplicate goals and plans, thereby helping the
     patients progress further within a shorter time frame. One medical reviewer remarked, “When
     collaboration occurs, the patient is the winner.”

Nationally, almost 13 percent of therapy was billed improperly
to Medicare
     Almost 13 percent of physical and occupational therapy, or 10.6 million of 82.9 million
     sessions, was billed improperly by SNFs to Medicare.6 Of these 10.6 million sessions,
     51.6 percent were physical therapy, and 48.4 percent were occupational therapy.

Improper billings by SNFs ranged from zero to almost 51 percent

     While 6 SNFs did not submit any improper therapy bills, 18 of the 24 sampled SNFs
     improperly billed for physical and/or occupational therapy. As shown in the graph below,
     smaller SNFs, those with fewer than 100 beds, exhibited a statistically higher rate of improper
     billings than the larger SNFs. The total number of licensed beds at the sampled SNFs ranged
     from 9 to 338 beds. We also analyzed other factors such as status (for-profit or not-for-
     profit), SNF affiliation (hospital-based or free-standing), type of therapy company (independent
     or national corporation), and type of ownership (part of multi-facility chain or independently
     owned). The differences among these variables were not statistically significant.




                                                                                     Source: Office of
                                                                                     Evaluation and
                                                                                     Inspections, 1999


           6
         Assuming that March 1998 is a typical month, we projected the results of the medical review to
 the 12-month period ending June 30, 1998.

Medical Necessity of SNF Physical/Occupational Therapy   12                                 OEI-09-97-00121
Almost 75 percent of all improperly billed therapy was not medically necessary

     Of the 13 percent of improperly billed therapy, almost three-fourths was billed improperly

     because the therapy was not medically necessary. Medical reviewers found that therapy was

     not medically necessary because, among other reasons, (1) patients were not appropriate

     candidates for therapy, (2) treatment goals were too ambitious, (3) therapy was too frequent

     and/or the session was too long, or (4) therapists billed routine maintenance services as skilled

     therapy.


     In some instances, medical reviewers suggested that physical and occupational therapy should

     have been postponed for some patients until their medical conditions became more stable. For

     example, one patient had received both physical and occupational therapy six times a week in

     spite of her declining medical condition. Towards the end of the month, the patient was

     receiving physical therapy twice each day along with one to two sessions of occupational

     therapy. Each session lasted 45 to 75 minutes. The patient was hospitalized for several days in

     the same month for dehydration and diarrhea. The treatment goals for physical therapy were to

     increase the patient’s strength, balance, bed mobility, and sitting tolerance. The reviewer

     determined that the patient did not receive any significant benefit from skilled physical therapy

     and expressed concern that the physical stress from the excessive and unnecessary therapy may

     have contributed to the patient’s need to be hospitalized repeatedly.


     Approximately 27 percent of physical therapy patients and almost 17 percent of occupational

     therapy patients could not achieve their goals and complete their treatment plans because the

     plans were too ambitious. Medical reviewers cited plans as unrealistic because they did not

     sufficiently consider the patient’s initial functional levels when developing goals. Several

     facilities used a “cookie-cutter” treatment plan for all patients within the same SNF regardless

     of the diagnosis. The reviewers questioned why treatment plans were not revised immediately,

     or at all, to reflect the patient’s documented lack of progress. Reviewers also noted that some

     initial evaluations, especially for occupational therapy, were very lengthy--

     1½ to 2 hours. A pattern of lengthy evaluations appeared to be a standard practice at several

     facilities.


     Excessive frequency and duration of therapy was a standard practice at some SNFs. For

     example, every sampled patient in three SNFs received therapy “B.I.D.” or twice a day except

     on Sundays (when they received therapy only once). Each session was 45 to 60 minutes long. 

     Reviewers questioned the higher frequency and duration because patients at other SNFs with

     similar diagnoses, goals, and plans achieved similar or better outcomes in shorter times with

     less frequency and duration.


     Patients’ medical conditions and tolerance levels often were not considered when they received

     therapy very frequently. For example, one patient was admitted with a diagnosis of chronic

     obstructive pulmonary disease and cardiac failure. The patient received 5 weeks of physical

     therapy with sessions twice a day. The lengthy and intense therapy was not justified in the



Medical Necessity of SNF Physical/Occupational Therapy   13                               OEI-09-97-00121
     medical record. The medical reviewer commented, “Although the episode of care could be
     considered reasonable, 60 to 75 minutes of care on a daily basis raises questions of intensity of
     care provided, particularly given [the patient’s imminent] discharge to a rehabilitation nursing
     program rather than home.”

Many patients received therapy from staff with inappropriate skill or experience

     Approximately 26 percent of the improperly billed physical and occupational therapy was
     provided by staff who did not have the appropriate skill for the patient’s medical condition. Of
     this 26 percent, the table below explains the major reasons.

                                                   Reason                                    Percent7
                    Physical therapist assistants and occupational therapy                      46%
                    assistants provided therapy beyond their skills

                    Rehabilitation aides provided care that was billed as skilled               50%
                    therapy

                    Therapy should have been provided by assistants rather                       5%
                    than by therapists
                                                         Source: Office of Evaluation and Inspections, 1999

     Other reasons included occupational therapists who provided physical therapy and physical
     therapist assistants who provided nonskilled maintenance services. For example, situations
     where (1) occupational therapy assistants who completed patient re-evaluations and discharge
     summaries instead of the occupational therapists; (2) physical therapist assistants who provided
     the entire episode of care, from evaluation through discharge summary, for several patients in
     the same facility; and (3) rehabilitation aides who provided therapy without evidence of direct
     supervision by a therapist or an assistant.

     Reviewers especially were concerned that physical therapist assistants and occupational therapy
     assistants were working beyond the scope of their State license and contrary to guidelines and
     practices followed by both national therapy associations. For example, a graduate occupational
     therapy student at one SNF provided services to patients, but the notes were not co-signed by
     the occupational therapist to indicate monitoring as required by State law. Reviewers also
     questioned the possible link between the length of therapy (both frequency of therapy and
     duration of individual sessions) and the skill level of the individual who rendered the
     treatments, i.e., the lesser the staff skill level, the higher the frequency and the longer the
     duration of therapy.



           7
            The percents do not total 100.0 percent due to rounding.

Medical Necessity of SNF Physical/Occupational Therapy          14                                            OEI-09-97-00121
Almost 4 percent of therapy was not documented in the
patients’ medical records
     Approximately 3.8 percent of therapy sessions either was not documented at all in the medical
     records or was not documented adequately to determine medical necessity. Documentation
     should include signed physician orders; individual treatment goals and plans; narrative
     summaries of care provided and/or therapy charts (also called grids) with all therapeutic
     interventions, the time spent on the interventions, which staff provided the therapy, and
     narratives of patient progress or changes in progress.8 Narrative summaries did not always
     provide necessary information, especially explanations for large variations in treatment times,
     such as a change from 30 minutes to 1 hour 45 minutes for the same interventions. Medical
     records that did not support the need for skilled therapy also had substandard documentation,
     including a lack of clinical data. Reasons for undocumented therapy may include the lack of
     staff training and/or the lack of time to document medical records properly. When asked how
     therapists receive information on Medicare coverage, medical necessity, and documentation
     guidelines, SNF administrators stated that they rely on the therapy companies to provide
     information to their staff. Few SNFs sponsor or actively participate in on-site Medicare
     therapy training.

     Reviewers commented that some forms and documentation methods were not comprehensive
     enough to capture clinical data to meet Medicare guidelines and professional therapy
     standards.9 Reasons may include the sharing of “cookbook forms” among staff from national
     therapy companies and a lack of knowledge by individual therapists of Medicare guidelines and
     criteria. Reviewers could not determine the skill level of the provider at one SNF due to poor
     documentation.




           8
          The medical reviewers requested additional documentation from the on-site therapists if patient
 records were in storage, misplaced, or appeared incomplete.
           9
         American Physical Therapy Association, “Guidelines for Physical Therapy Documentation,”
 Guide to Physical Therapist Practice, 1998, appendix 7.

Medical Necessity of SNF Physical/Occupational Therapy   15                                    OEI-09-97-00121
                                RECOMMENDATION


     From our findings, it is clear that some problems stem from a lack of awareness and
     understanding of Medicare coverage and guidelines, while others may be more directly related
     to overutilization in order to maximize Medicare reimbursement. Our findings also reflect our
     general concern for the need for improved quality of care, with an emphasis on patient safety
     and appropriate therapy treatment.

     Therefore, we recommend that the Health Care Financing Administration provide more
     training to SNFs and therapy staff on Medicare coverage criteria and guidelines for physical
     and occupational therapy, local medical review policies, and monitoring procedures. This
     could be accomplished by:

     1.	 instructing Medicare fiscal intermediaries to provide regular workshops to SNFs, especially
         smaller facilities, and therapists and

     2.	 working collaboratively with the national therapy and nursing home associations to assure
         that they provide accurate and comprehensive information to their members.

     In this report, we have focused on the medical necessity of physical and occupational therapy.
     As noted earlier, in a companion report entitled Physical and Occupational Therapy in
     Nursing Homes: Cost of Improper Billings to Medicare (OEI-09-97-00122), we analyzed how
     much improperly billed therapy costs the Medicare program.

AGENCY RESPONSE

     We received comments on the draft report from the Health Care Financing Administration.
     The agency concurred with the report’s conclusions. The Health Care Financing
     Administration already has increased medical review efforts at the Medicare contractors as part
     of its on-going program integrity efforts, and they will continue to focus on appropriate
     therapy for Medicare beneficiaries. The agency also has published new medical review
     guidelines for skilled nursing facilities and plans to conduct related training to strengthen
     provider education.

     The full text of the Health Care Financing Administration’s comments appears in appendix C.




Medical Necessity of SNF Physical/Occupational Therapy   16                             OEI-09-97-00121
                                                                                     APPENDIX A

                                              Glossary of Terms


Primary Therapy Providers

 <	 Physical therapist--professionally educated at the college or university level and is required to
    be licensed or registered in all States.10 A primary role is to provide therapy to patients who
    have impairments, functional limitations, disabilities, or changes in physical function and health
    status resulting from injury, disease, or other causes.11 The physical therapist is responsible for
    any evaluation and assessment of a patient’s therapy status.

 <	 Physical therapist assistant--a graduate of an accredited physical therapist assistant associate
    degree program accredited by an agency recognized by the Commission on Accreditation in
    Physical Therapy Education. Assistants are licensed, certified, registered, or approved in
    almost all States and Puerto Rico, except in Hawaii, Minnesota, Michigan, Washington,
    Wisconsin, the District of Columbia, and the U.S. Virgin Islands. The assistant works with the
    physical therapist in the provision of physical therapy. The assistant may perform procedures
    and related tasks that have been selected and delegated by the supervising physical therapist.
    Where permitted by law, the physical therapist assistant may complete routine operational
    functions, including supervision of physical therapy aides and documentation of patient
    progress. The assistant may modify a specific therapeutic activity in accordance with changes
    in patient status and within the scope of the established treatment plan.12

 <	 Physical therapy aide/technician--a nonlicensed worker, trained under the direction of a
    physical therapist. The aide performs designated routine therapy tasks that are delegated by
    the physical therapists or, in accordance with the State law, by a physical therapist assistant.
    The aide performs only with the continuous on-site supervision of the physical therapist or,
    where allowable by State law or regulation, the physical therapist assistant.13




           10
          American Physical Therapy Association, Definition of Physical Therapist for State Practice
 Acts, Board of Directors Policies, Positions and Guidelines, March 1999.
           11
                American Physical Therapy Association, Guide to Physical Therapist Practice (1998),
 page 1-1.
           12
                Ibid., page 1-10.
           13
                Ibid., page 1-10.

Medical Necessity of SNF Physical/Occupational Therapy   17                                    OEI-09-97-00121
                                                                                APPENDIX A

 <	 Occupational therapist--professionally educated at the college or university level obtaining, at
    a minimum, a bachelor’s degree from a program accredited by the Accreditation Council for
    Occupational Therapy Education. The occupational therapist completes a minimum of 6
    months of clinical training under the supervision of an experienced occupational therapist. The
    therapist must successfully complete a national registration examination administered by the
    National Board of Occupational Therapy. States regulate occupational therapists by licensure,
    registration, certification, or trademark. The occupational therapist is responsible for (1)
    determining and interpreting the evaluation, (2) initiating treatment goals and plans,
    (3) initiating substantive changes to the goals and plans, and (4) determining when to discharge
    patients from occupational therapy programs.14

 <	 Occupational therapy assistant--a graduate of an associate degree program accredited by the
    Accreditation Council for Occupational Therapy Education. The assistant completes
    12 weeks of clinical training under the supervision of an occupational therapist or an
    experienced occupational therapy assistant. The assistant must successfully complete a
    national certification examination for occupational therapy assistants administered by the
    National Board Certification of Occupational Therapy. Many States regulate occupational
    therapy assistants by licensure or registration. The assistant (1) collects data for evaluation, (2)
    carries out treatment plans, and (3) modifies the treatment goals and plan under the supervision
    of an occupational therapist. Assistants also may gather data and complete portions of the re-
    evaluation for the occupational therapist’s interpretation to change treatment goals and plans.

 <	 Occupational aide/technician--may assist an occupational therapist, under the direct
    supervision of the therapist at the time the therapy is given. Direct supervision is the physical
    presence of the qualified occupational therapist.

Other Terminology15

 <	 Activities of Daily Living--self-care activities that must be performed to achieve functional
    independence may be classified as mobility activities, bathing, grooming, personal hygiene,
    eating, dressing, bowel control, and bladder control. An expectation exists that the therapy
    will result in a significant practical improvement in the patient’s level of functioning in a
    reasonable period of time.



           14
          Accreditation Council for Occupational Therapy Education, OTA Essentials,
 updated July 1995.
           15
          Most definitions were included in the American Physical Therapy Association’s Guide to
 Physical Therapist Practice (1998).

Medical Necessity of SNF Physical/Occupational Therapy   18                                OEI-09-97-00121
                                                                               APPENDIX A

 <	 Episode of care--all patient management activities provided, directed, or supervised by the
    therapist, from initial contact through discharge.
 <	 Evaluation--used to report the initial assessment before the treatment plan is established by the
    therapist or physician. The therapist makes clinical judgments based on data gathered during
    the initial examination.

 <	 Re-evaluation--process by which the patient’s status is updated following the initial
    examination because of new clinical indications, failure to respond to interventions, or failure
    to establish progress from baseline data. The re-evaluation usually is completed by a therapist
    or physician, not by an assistant or aide.

 <	 Therapeutic intervention--the purposeful and skilled interaction of the therapist with the
    patient, and, when appropriate, with other staff involved in the patient’s care, using various
    methods and techniques to produce changes in the patient’s condition.

 <	 Treatment goals--the therapist’s or physician’s description of what the patient is expected to
    achieve as a result of therapy.16

 <	 Treatment plan--specifies the anticipated short-term and long-term goals and the desired
    outcomes, predicted level of optimal improvement, specific interventions to be used, duration
    and frequency of the therapy required to reach the goals and outcomes, and criteria for
    discharge.




           16
         Health Care Financing Administration, Medicare Intermediary Guidelines, Section A3 3904C5
 under Medical Review of Part B Intermediary Outpatient Bills.

Medical Necessity of SNF Physical/Occupational Therapy   19                              OEI-09-97-00121
                                                                                 APPENDIX B

                   Confidence Intervals for Selected Statistics


     The following tables show the point estimates and 95 percent confidence intervals for selected
     statistics, in the order that they appear in the report. These calculations account for all levels
     of clustering and stratification as described in the methodology.

                                                                   Point             95 Percent
                                 Statistic
                                                                  Estimate       Confidence Interval
Of March 1998 physical and occupational therapy for SNF
                                                                    83.5%            79.7% - 87.2%
patients, percent that was billed properly

Of March 1998 physical and occupational therapy for SNF             12.7%             8.6% - 16.9%
patients, percent that was billed improperly

Of March 1998 physical and occupational therapy for SNF             3.8%              2.6% - 5.0%
patients, percent that was undocumented

Of SNF patients who received physical therapy during
                                                                    66.8%            63.3% - 70.4%
March 1998, percent who achieved their treatment goals

Of SNF patients who received physical therapy during
                                                                    27.1%            21.2% - 33.1%
March 1998, percent who did not achieve their treatment goals

Of SNF patients who received physical therapy during
March 1998, percent for whom the reviewers could not                6.0%              1.5% - 10.6%
determine whether the patient achieved treatment goals

Of SNF patients who received occupational therapy during
                                                                    73.3%            63.4% - 83.3%
March 1998, percent who achieved their treatment goals

Of SNF patients who received occupational therapy during
                                                                    16.5%            10.0% - 23.1%
March 1998, percent who did not achieve their treatment goals

Of SNF patients who received occupational therapy during
March 1998, percent for whom the reviewers could not                10.1%             0.2% - 20.0%
determine whether the patients achieved treatment goals

Total number of physical and occupational therapy sessions
                                                                  7.0 million   3.5 million - 10.6 million
provided to SNF patients during March 1998




Medical Necessity of SNF Physical/Occupational Therapy   20                                OEI-09-97-00121
                                                                                  APPENDIX B

                                                                    Point             95 Percent
                                 Statistic
                                                                   Estimate       Confidence Interval
 Total number of physical and occupational therapy sessions
 provided to SNF patients for a 12-month period ending             82.9 million             **
 June 30, 1998

 Total number of improperly billed physical and occupational       0.9 million
                                                                                  0.3 million - 1.5 million
 therapy sessions provided to SNF patients during March 1998

 Total number of improperly billed physical and occupational
 therapy sessions provided to SNF patients for a 12-month          10.6 million             **
 period ending June 30, 1998

 Of improperly billed physical and occupational therapy sessions
                                                                     51.6%            41.3% - 61.8%
 provided during March 1998, percent that were physical therapy

 Of improperly billed physical and occupational therapy sessions
 provided during March 1998, percent that were occupational          48.4%            38.2% - 58.7%
 therapy

**NOTE:	 These estimated projections from March 1998 to a 12-month period are based on the
         assumption that March 1998 is a typical month. We tested this assumption by examining
         SNF Medicare charges for physical and occupational therapy. For example, the SNFs
         submitted $685 million in physical and occupational therapy charges during March 1998
         and $7.85 billion during the 12 months ending March 31, 1998. This ratio ($685
         million/$7.85 billion) is approximately equivalent to the ratio (31/365) that we used in
         projecting to a 12-month period. Because our sample was limited to March 1998, we are
         unable to calculate 95 percent confidence intervals for these 12-month estimates.




Medical Necessity of SNF Physical/Occupational Therapy   21                                 OEI-09-97-00121
                                                                APPENDIX C

                                             Agency Comments





Medical Necessity of SNF Physical/Occupational Therapy   22          OEI-09-97-00121
                                                              APPENDIX C




Medical Necessity of SNF Physical/Occupational Therapy   23        OEI-09-97-00121
                                                              APPENDIX C




Medical Necessity of SNF Physical/Occupational Therapy   24        OEI-09-97-00121
